           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION


 AHTNA ENGINEERING SERVICES, LLC,
  CONTRACT NUMBER SS00-07-60063

     October 2011   A-07-11-11140




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      October 4, 2011                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Ahtna Engineering Services, LLC, Contract Number SS00-07-60063 (A-07-11-11140)


           OBJECTIVE
           The objectives of our review were to (1) determine whether the contractor, Ahtna
           Engineering Services, LLC (AES), complied with the contract terms and applicable
           regulations; and (2) ensure Social Security Administration (SSA) personnel properly
           monitored the contract.

           BACKGROUND
           Since 1992, SSA’s National Records Center (NRC) has been a storage and
           maintenance site for millions of SSA’s paper records. NRC is the largest of SSA’s three
           folder storage facilities. 1 By 2017, the NRC is scheduled to be the final repository for all
           SSA paper records, including those records previously stored at other record storage
           facilities.

           In 2007, SSA awarded a fixed-price contract to AES to store and manage approximately
           18 million Title II and Title XVI folders at the NRC. The contract included 1 base year,
           4 option years, and 5 additional incentive years. The contract is currently in Option
           Year 4. The total cost to SSA for full performance of this contract would be about
           $100.6 million, as shown in Table 1 on the next page.




           1
               SSA also has record storage facilities in Baltimore, Maryland, and Wilkes-Barre, Pennsylvania.
Page 2 - The Commissioner

                        Table 1: AES Contract Number SS00-07-60063
    Contract Years                Period of Performance                                     Amount 2
    Base Year                     August 1, 2007 - July 31, 2008                    $      9,795,342
    Option Year 1                 August 1, 2008 - July 31, 2009                    $     10,901,936
    Option Year 2                 August 1, 2009 - July 31, 2010                    $      9,470,129
    Option Year 3                 August 1, 2010 - July 31, 2011                    $     10,063,452
    Option Year 4                 August 1, 2011 - July 31, 2012                    $     10,133,304
    Incentive Option Year 5       August 1, 2012 - July 31, 2013                    $     10,862,664
    Incentive Option Year 6       August 1, 2013 - July 31, 2014                    $      9,685,800
    Incentive Option Year 7       August 1, 2014 - July 31, 2015                    $      9,772,152
    Incentive Option Year 8       August 1, 2015 - July 31, 2016                    $      9,874,608
    Incentive Option Year 9       August 1, 2016 - July 31, 2017                    $     10,000,416
                                                               Total                    $100,559,803

SCOPE AND METHODOLOGY
We reviewed the contract and contract modifications for the base year and Option
Years 1 and 2. 3 To determine whether AES complied with the contract terms and
applicable regulations, we reviewed

•     services AES performed for compliance with the contract,
•     deliverables AES completed for compliance with the contract, and
•     invoices to ensure they were accurate and submitted to SSA timely.

To determine whether SSA properly monitored the contract, we reviewed SSA’s
procedures for ensuring

•     AES accomplished the services outlined in the contract,
•     AES personnel obtained the suitability determinations required by the contract, and
•     SSA paid invoices accurately and timely. 4




2
 These amounts are based on Contract Modification 12, the most recent modification that affected
pricing.
3
    See Appendix B for additional scope and methodology.
4
  The Prompt Payment Act, Public Law Number 97-177, 96 Stat. 85 (1982), states the period available to
an agency to make timely payment of an invoice shall be 30 days after the date of receipt of a proper
invoice.
Page 3 - The Commissioner

RESULTS OF REVIEW
We determined AES complied with the contract terms and applicable regulations.5
Specifically, AES provided the services and deliverables required by the contract and
submitted accurate invoices to SSA timely.

We also determined SSA made accurate and timely payments to AES. However, SSA
was not monitoring all the services AES was contractually required to complete.
Specifically, SSA did not have procedures for monitoring AES’ accomplishments for
16 of the 26 performance requirements outlined in the contract.

AES’ COMPLIANCE WITH THE CONTRACT

We determined AES complied with the contract terms and applicable regulations.
Specifically, we determined AES performed the 12 services outlined in the contract (see
Appendix C). We also determined AES provided SSA with all deliverables required by
the contract. These deliverables included such information as operating procedure
manuals and electronic copies of the AES employee roster. Finally, we determined
AES submitted accurate invoices to SSA timely.

SSA’s MONITORING OF THE CONTRACT

We determined SSA did not monitor all the services the contract required AES to
perform. The contract outlined 26 performance requirements for SSA to monitor AES’
performance. SSA had procedures to monitor AES’ performance for 10 of the
26 performance requirements (see Appendix D, Table 1). However, SSA did not have
procedures to monitor AES’ performance for the remaining 16 performance
requirements (see Appendix D, Table 2).

SSA stated that it did not monitor the 16 performance requirements because

•   11 requirements did not reflect SSA’s current service expectations of AES
    performance,
•   4 requirements were not critical services AES performed and did not need constant
    monitoring, and
•   1 requirement related to a service AES no longer performed.




5
 AES complied with the Code of Federal Regulations (C.F.R.) 48 C.F.R. §§ 52.204-9, 52.212-4, and
52.228-5.
Page 4 - The Commissioner

SSA further stated that it was revising the performance requirements for this contract to
reflect the issues of contractor performance that the Agency needs to monitor. SSA
expects the new performance requirements to be in place during Option Year 4 of the
contract. Given that SSA is working on revisions to the performance requirements, we
are not making a recommendation on this issue.

CONCLUSION
We determined AES complied with the contract terms and applicable regulations. We
also determined SSA made accurate and timely payments to AES. However, SSA did
not have procedures for monitoring AES’ accomplishment for 16 of the 26 performance
requirements outlined in the contract. According to SSA, it did not monitor these
requirements because the contract needed revised performance requirements. SSA
expects new performance requirements to be in place during Option Year 4 of the
contract; therefore, a recommendation on this issue is not warranted.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Ahtna Engineering Services, LLC, Contract Services

APPENDIX D – SSA Performance Requirements

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
AES      Ahtna Engineering Services, LLC
C.F.R.   Code of Federal Regulations
CO       Contracting Officer
COTR     Contracting Officer Technical Representative
CPSPM    Center for Personnel Security and Project Management
IRG      Information Retrieval Group
NRC      National Records Center
OAG      Office of Acquisition and Grants
OF       Office of Finance
OIG      Office of the Inspector General
SSA      Social Security Administration
VA       Department of Veterans Affairs
                                                                      Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed the contract between the Social Security Administration (SSA) and Ahtna
    Engineering Services, LLC (AES), contract number SS00-07-60063 and all
    modifications through July 31, 2010, to assess the contractor’s ability to meet and
    comply with the contract requirements.

•   Reviewed applicable sections of the Federal Acquisition Regulations, SSA
    Administrative Instructions Manual System, SSA Acquisition Regulations,
    Department of Health and Human Services Project Officers’ Contracting Handbook,
    and the Prompt Payment Act.

•   Ensured AES performed services required in the contract by:
     Completing a walk-through of the National Records Center (NRC) facility led by
      the Contracting Officer Technical Representative (COTR). The COTR provided
      an explanation of each work area in the NRC facility and a description of the
      work AES personnel conduct.
     Discussing with the COTR any services not being performed at the time of our
      walk-through of the NRC facility to ensure AES completed services required.
     Reviewing AES’ management information reports to determine whether AES
      processed the number of folders required by the contract for Option Year 2.

•   Interviewed the COTR, the Contracting Officer (CO) in the Office of Acquisition and
    Grants (OAG), and staff in the Office of Finance (OF) to discuss the required
    contract deliverables and payment terms.

•   Reviewed the deliverables AES provided SSA to ensure AES complied with the
    terms of the contract.

•   Reviewed the performance requirements outlined in the contract and held
    discussions with the COTR and local Quality Assurance staff to determine whether
    quality assurance procedures in place were adequate to monitor contract
    performance.

•   Interviewed the CO, the COTR and the Center for Personnel Security and Project
    Management (CPSPM) staff to discuss AES personnel suitability procedures. We
    also reviewed a sample of AES contractor employees’ suitability letters to validate
    final determination dates provided by both CPSPM and AES.

•   Obtained invoices for this contract from the OF.


                                           B-1
We reviewed all invoices to ensure
•   SSA paid amounts approved by the contract,
•   invoices were approved by the COTR before payment of invoices,
•   SSA paid invoices timely in accordance with the terms of the contract, and
•   staff recorded invoice amounts correctly.

We conducted our audit in Kansas City, Missouri, from October 2010 through
June 2011. We determined that the data used for this audit were sufficiently reliable to
meet our audit objective. The entities audited were OAG and OF within the Office of
Budget, Finance and Management and SSA’s NRC staff within the Mid-America
Program Service Center. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provided a reasonable basis for our findings and
conclusions based on our audit objectives.




                                           B-2
                                                                                  Appendix C
Ahtna Engineering Services, LLC, Contracted Services

     Ahtna Engineering Services, LLC, (AES) Services Required under the Contract
      Service Provided by AES                             Description of Service
1    Recalls                          Folders removed from files (boxes) at the request of a Social
                                      Security Administration (SSA) component and shipped to
                                      customers.
2    Refiles                          Includes returning folders shipped from any SSA component to
                                      storage.
3    Drop Files                       Refers to placing paper documents in the appropriate folder
                                      without reviewing or removing the original folder.
4    Folder Destruction Pull          Refers to AES pulling folders for destruction based on the listing
                                      of folders provided by SSA.
5    Compaction                       The process of combining partially filled boxes to form full boxes
                                      while maintaining proper order of the folders.
6    Validation                       The process of "verifying" that all records are correctly filed and
                                      accurately recorded in the appropriate SSA computer tracking
                                      system.
7    Searches/Photocopying            Consists of providing VA with photocopies of certain medical
     Services Related to Requests     documents in SSA’s records maintained at the National Records
     from the Department of           Center (NRC). It also includes performing electronic transfers of
     Veterans Affairs (VA)            information from SSA’s records to VA.
8    Title II Information Retrieval   Responds to customer requests for certain limited information
     Group (IRG)                      believed to be contained in a folder that is also believed to be
                                      housed at the NRC.
9    Systems Alerts/Messages          This consists of the contractor handling or processing "alert"
     Related to Title XVI Cases       messages requesting Title XVI folders.
10   Operation of Mailrooms,          AES is responsible for operating several mailrooms for receipt
     Packaging, Shipping              and processing of folders and materials at the NRC.
11   General Housekeeping             AES is responsible for maintaining its office space in a neat and
     Services                         professional manner and for cleaning contractor-furnished
                                      equipment.
12   Maintenance and Repair of        AES is responsible for maintenance and repair of Government-
     Certain Government-Furnished     furnished equipment and structural fixtures and furniture used
     Equipment and General            in, or related to, the day-to-day performance of the contract and
     Oversight for Service Related    the operations of the NRC Folder Storage Facility.
     Infrastructure
                                                                                    Appendix D
Social Security Administration Performance Requirements
             Table D-1: Performance Requirements the Agency Monitored
     Required Task              Performance Requirement
1    Drop Files                 Material shall be filed within 2 business days of receipt of the material.
                                All folders indicated on the destruct listing shall be located and pulled
2    Folder Destruction Pull    for destruction by the last day of the period of performance in which the
                                activity occurs.
3    Barcoding                  All folders shall be barcoded before shipping.
                                All partially filled boxes shall be combined to form full boxes while
4    Compaction                 maintaining proper numerical order of the folders. This process
                                typically follows destruction of folders.
                                Verification that all records are correctly filed and accurately recorded in
5    Validation
                                the appropriate SSA Computer Tracking System.
     Processing Requests
                                Timely and accurately respond to all requests for information from the
6    from the Department of
                                VA.
     Veterans Affairs (VA)
     Title II Information       Timely and accurately respond to all requests for information and refile
7
     Retrieval Group            all folders.
     Management Information     Reports are clear and accurate and submitted in accordance with
8
     Report – Daily             delivery schedule.
     Management Information     Reports are clear and accurate and submitted in accordance with
9
     Report – Monthly           delivery schedule.
     Facilities Equipment and   Properly maintain Government-furnished property and service-related
10
     Maintenance Services       infrastructure.




                                                 D-1
          Table D-2: Performance Requirements the Agency Did Not Monitor
     Required Task                                 Performance Requirement
                          All incoming mail shall be opened, sorted, and processed on the day it is
1    Incoming Mail
                          received at the National Records Center (NRC).
                          Outgoing mail shall be packaged, prepared, addressed, postage affixed, and
2    Outgoing Mail
                          delivered to the carrier on an as-needed basis, but at least once per day.
                          Misrouted material shall be repackaged/rerouted to the appropriate SSA
3    Misrouted Material
                          component.
                          At all times, observe and refile all misfiled folders and refolder damaged,
     Refolder (Minimize
4                         mislabeled, and/or non-conforming folders encountered while performing
     Unable to Locate)
                          normal daily activities.
     Recalls Located at   Recalled requests, in which all folders associated with the request are located
5
     the NRC              at the NRC, shall be shipped within 24 hours after receipt of the request.
                          Damaged or mislabeled folders shall be repaired and nonconforming folders
6    Refolder/Rejects
                          shall be processed before shipping to the requestor.
                          Title II folders shall be filed/refiled within 24 hours of receipt of the folder at the
7    Title II Refiles
                          NRC.
     Title II Refiles
                          Title II folders, which require recordation must be filed/refiled within 24 hours
8    which Require
                          after completion of recordation.
     Recordation
                          Title XVI folders must be filed/refiled within 48 hours of completion of
9    Title XVI Refiles    recordation, allowing for any waiting period for "Alerts," which may be received
                          on the case.
     Title II             Title II records shall be "recorded" into SSA's data system (i.e., via Processing
10
     Recordation          Control Action Center System) within 24 hours of receipt at the NRC.
                          Title XVI records shall be "recorded" within 24 hours of the time the record is
     Title XVI
11                        assigned for recordation (the point at which the record is placed in the
     Recordation
                          recordation staging area).
     Shredding            All material to be shredded shall be accurately collected in shredder bags and
12
     Material             shredded using the Government-furnished shredding equipment.
13   Queries              Queries shall be responded to within 2 business days of receipt of the material.
     Remittance
14                        All remittances shall be accurately processed.
     Handling
     Ship Cassettes/
                          All hearing cassettes, micro cassettes, video tapes, and X-rays received
15   Video Tapes/
                          and/or found shall be labeled and shipped.
     X-rays
16   System Alerts for
                          Alert messages must be accurately and timely resolved.
     Title XVI




                                                    D-2
                  Appendix E
Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 12, 2011                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Ahtna Engineering Services, LLC, Contract
           Number SS00-07-60063” (A-07-11-11140)—INFORMATION

           Thank you for the opportunity to review the draft report. We do not have comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment
                                                                       Appendix F
OIG Contact and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division
   Kenneth Bennett, Information Technology Specialist

Acknowledgments

In addition to those named above:

   Nicholas Moore, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-11-11140.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security

Chairman and Ranking Member, Committee on Ways and Means

Chief of Staff, Committee on Ways and Means

Chairman and Ranking Minority Member, Subcommittee on Social Security

Majority and Minority Staff Director, Subcommittee on Social Security

Chairman and Ranking Minority Member, Committee on the Budget, House of
 Representatives

Chairman and Ranking Minority Member, Committee on Oversight and Government Reform

Chairman and Ranking Minority Member, Committee on Appropriations, House of
 Representatives

Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
 Education and Related Agencies, Committee on Appropriations, House of Representatives

Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Committee on Finance

Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
 Family Policy

Chairman and Ranking Minority Member, Senate Special Committee on Aging

Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
